                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDLTM

Case Number: A090'40030
                                                                                    11           Page 1 of I



         We received an allegation of plagiarism in a proposal1 submitted to NSF. The PI^ and CO- PI^ had
         copied text from a user manual of one of the instruments they proposed to use in their study. In
         addition to the text copied from the manual, the authors did not properly quote copied results from a
         previous study, however they cited these results near their use of the text. We sent the PI and co-PI a
         letter explaining the proper citation practices in regards to these findings, but no further action will
         be taken. Accordingly, this case is closed.




                                                                                                                    111
VSF OIG Form 2 (11/02)
